                                                                 Issue Date
                                                                       September 24, 2009
                                                                 Audit Report Number
                                                                          2009-LA-1020




TO:         Stephen Schneller, Director, Office of Public Housing, Region IX, 9APH
            Henry S. Czauski, Acting Director, Departmental Enforcement Center, CV



FROM:       Joan S. Hobbs, Regional Inspector General for Audit, Region IX, 9DGA

SUBJECT: The Housing Authority of the City of Richmond, Richmond, California, Did Not
         Follow Procurement Requirements and Had Internal Control Weaknesses

                                    HIGHLIGHTS

 What We Audited and Why

      We audited the Housing Authority of the City of Richmond (Authority) in response to the
      U.S. Department of Housing and Urban Development (HUD) Office of Public Housing’s
      concerns about the Authority’s procurement activities. Our objective was to determine
      whether the Authority followed procurement requirements.


 What We Found
      The Authority could not adequately support that it conducted procurement activities in
      accordance with applicable requirements, including full and open competition. As a
      result, it could not demonstrate that contracts were awarded to vendors whose proposals
      were most advantageous to the Authority.

      The Authority also had internal control weaknesses. The written procedures contained
      inconsistent instructions, payments were processed and issued without proper supporting
      documentation and required approvals, contract limits were ignored, and controls for
      safeguarding the Authority’s financial assets were not in place or not effective. These
      conditions created significant risks for the Authority.
What We Recommend

     We recommend that the Director of HUD’s San Francisco Office of Public Housing
     ensure that the Authority’s board of commissioners obtains a full understanding of
     federal procurement requirements and conducts annual reviews of the Authority’s
     payment history for the next three years or until HUD is satisfied that the Authority’s
     procurements and contracts comply with federal requirements.

     We also recommend that the Director of HUD’s San Francisco Office of Public Housing
     require the Authority to (1) terminate the existing contracts and ongoing purchases for
     security services, landscaping maintenance, Section 8 housing quality standards annual
     inspection services, and Section 8 housing quality standards initial inspection services;
     (2) conduct new procurements for these services in accordance with applicable
     requirements; (3) repay from nonfederal funds $112,755 to its public housing program or
     Section 8 program, as appropriate, for ineligible costs; (4) support or repay from
     nonfederal funds more than $2.4 million to its public housing program or Capital Fund or
     Section 8 program, as appropriate, for unsupported costs; (5) obtain HUD’s review and
     approval of all contracts and amendments totaling more than $100,000, in part or
     aggregate before execution, for the next three years or until HUD is satisfied that
     procurement actions are appropriate; and (6) provide training to responsible personnel to
     ensure that they understand federal procurement requirements.

     We recommend that the Acting Director of HUD’s Departmental Enforcement Center
     take administrative actions against DP Security, its owner, and the Authority’s deputy
     director for their part in the violations.

     For each recommendation without a management decision, please respond and provide
     status reports in accordance with HUD Handbook 2000.06, REV-3. Please furnish us
     copies of any correspondence or directives issued because of the audit.

Auditee’s Response


     We provided the Authority a discussion draft report on August 24, 2009, and held an exit
     conference with the Authority’s officials on August 26, 2009. The Authority provided
     written comments on September 2, 2009.

     The complete text of the auditee’s response, along with our evaluation of that response,
     can be found in appendix B of this report.




                                              2
                           TABLE OF CONTENTS

Background and Objective                                                      4

Results of Audit
      Finding 1: The Authority Could Not Adequately Support Its Procurement   5
                 Activities

      Finding 2: The Authority Had Internal Control Weaknesses                14


Scope and Methodology                                                         18

Internal Controls                                                             19

Appendices

   A. Schedule of Questioned Costs                                            21
   B. Auditee Comments and OIG’s Evaluation                                   22
   C. Criteria                                                                30




                                           3
                      BACKGROUND AND OBJECTIVE

The Housing Authority of the City of Richmond (Authority) was formed in 1941 as a separate
legal entity under the provisions of the Housing Act of 1937. The Authority was established to
rehabilitate local deteriorated housing and to subsidize low-income families in obtaining decent,
safe, and sanitary housing. Although the Authority is a separate legal entity from the City of
Richmond (City), it is an integral part of the City. The City exercises significant financial and
management control over the Authority, and members of the city council serve as the governing
board of the Authority. In January 2009, the Authority’s board of commissioners (board) was
reduced from 11 members (nine city council members and two tenant commissioners) to nine
members (seven city council members and two tenant commissioners).

In fiscal year 2008, the Authority received more than $1.6 million in public housing operating
subsidies and nearly $15.1 million in Section 8 Housing Choice Voucher program funds and was
authorized to receive more than $900,000 in capital funds.

Based on the U.S. Department of Housing and Urban Development’s (HUD) concerns, we
performed an audit of the Authority. Our objective was to determine whether the Authority
followed procurement requirements.




                                                4
                                RESULTS OF AUDIT

Finding 1: The Authority Could Not Adequately Support Its
           Procurement Activities
The Authority could not adequately support its procurement activities for security services,
Section 8 housing quality standards initial inspection services, public housing uniform physical
condition standards inspection services, Section 8 housing quality standards annual inspection
services, landscaping maintenance services, maintenance/vacant unit turnover services, and
construction services. For example, the Authority’s board rejected the results of the Authority’s
procurement process and voted to award the security services contract to a firm that had an
undisclosed conflict of interest with board members. The Authority awarded contracts without
using the proper procurement methods, failed to ensure that procurement activities showed no
appearance of conflict of interest, did not retain records pertinent to the procurement, renewed
contracts when the original contract did not contain an option to renew, and made contract
payments without adequate support. These violations occurred because the Authority’s board
ignored HUD’s procurement requirements and the Authority’s procurement policy and the staff
did not always follow procurement requirements. As a result, the Authority paid more than $2.5
million in questioned costs, for which it could not ensure that the services obtained were most
advantageous to the Authority. This amount included more than $2.4 million in unsupported and
more than $112,000 in ineligible costs.


 No Procurement
 Documents for Three
 Security Services
 Contracts
       Available records showed that DP Security Services, LLC (DP Security), had provided
       security services to the Authority for senior/disabled public housing developments since
       at least 1998. However, the Authority could not provide documentation to show the
       significant history of the procurement activities leading up to the DP Security May 1998,
       August 2000, and September 2000 contracts. According to the accounting records, DP
       Security received continuous payments after the September 2000 contract expired in
       September 2001. The Authority was unable to provide documentation showing
       justification for the choice of procurement method, the independent cost estimate, the
       requests for proposals, the advertisement, proposals received, the proposal evaluations,
       and the basis for the contract award. In addition, management alleged that the board
       required the Authority to obtain security services from DP Security. However, no
       documentation was available to confirm or deny the allegation. Without the procurement
       documentation, the Authority could not support that it procured security services with full
       and open competition as required by HUD. As a result, it was unable to demonstrate that
       contracting with and paying DP Security more than $1.5 million between 1999 and
       January 2009 was most advantageous to the Authority.



                                                5
    The contracts with DP Security had deficiencies. They failed to include a fixed contract
    amount, renewal options if applicable, and the provisions required by HUD’s
    procurement requirements, which included legal remedies, equal employment
    opportunity, termination for cause, etc. In addition, the Authority allowed payments
    without written renewal options and continued to obtain security services beyond the
    five-year limitation as set forth in HUD requirements.

Flawed Procurement for
the Fourth Security
Services Contract

    In November 2007, the Authority presented to the board its recommendation to execute a
    contract with OSS International, Inc. (OSS), to provide security services to two
    senior/disabled public housing developments. The request for proposals process for the
    security services contract resulted in four responsive proposals (OSS, Mason Security
    Services, Inc. (Mason), Securitas Security Services USA, Inc., and DP Security). A
    selection committee reviewed and rated the four proposals using three evaluative factors:

           History/experience/management/operation,
           Price, and
           Technical aspects.

    Based on these ratings, OSS had the highest score among the four proposers, and the
    Authority recommended that the board execute a contract with OSS. During a November
    6, 2007, public meeting, the board rejected the Authority’s request. There was no
    documentation to show justification for the board’s decision. According to the Authority,
    the board rejected OSS due to the following concerns: the request for proposals process
    was flawed, the Authority manager overseeing the process was biased against DP
    Security, there was a lack of public housing tenant representation on the selection
    committee, and the request for proposals needed editing. Considering the board’s
    concerns, the Authority issued another request for proposals for the contract.

    Three security firms (OSS, Mason, and DP Security) submitted proposals for the second
    request for proposals. The selection committee, which included two public housing
    tenant representatives, reviewed and rated the three security firms using the following
    factors:

           Technical aspects,
           History/experience/management/operation,
           Price, and
           Interview.




                                            6
           Based on the committee’s ratings, Mason was rated the highest. The Authority presented
           these results to the board. During a January 6, 2009, public meeting, the board rejected
           the Authority’s request. Instead of having the Authority issue another request for
           proposals, the board selected DP Security as the firm to provide security services. The
           board believed that since DP Security had the lowest price among the three contractors, it
           should have received the security services contract. The board’s action violated the intent
           of HUD procurement rules and regulations to ensure open and fair competition and the
           Authority’s own procurement procedures.

           HUD requirements provide specific rules, regulations, and guidance addressing real or
           apparent conflict of interest of officers, employees, and agents of agencies involved in the
           procurement of goods and services. The board’s repeated rejection of security firms
           selected through the request for proposals process created the appearance that it was
           seeking a particular firm, DP Security, for the contract. City public records showed that a
           majority of the board members had received political contributions amounting to more
           than $7,200 from DP Security and/or its owner during the request for proposals process.
           These contributions were not disclosed as potential conflicts of interest during the public
           meetings. The board’s actions leading up to the awarding of the security services
           contract to DP Security exposed the Authority to significant financial and legal risks. As
           a result, the Authority incurred more than $46,000 in ineligible costs associated with the
           execution of the January 2009 security services contract outside both HUD procurement
           rules and regulations and the Authority’s own procurement policies and procedures.

    Potential Conflicts of Interest


           The deputy director participated in the procurement for Section 8 housing quality standards
           initial inspection services that resulted in the contract being awarded to his brother in April
           2008. HUD prohibits public housing agency employees or officers from participating in the
           selection, award, or administration of contracts supported by federal funds if a conflict of
           interest, real or apparent, would be involved. In violation of HUD requirements, the deputy
           director solicited and received at least one proposal from his brother.1

           In addition, the deputy director participated in the evaluation of the proposals received
           from two firms, one of which was his brother’s. According to the deputy director, the
           other firm’s proposal was not responsive to the request for proposals.2 As a result, the
           Authority awarded the contract to his brother. That contract should have ended by June
           30, 2008. Although the original contract did not have a renewal option, it was extended

1
   The deputy director’s brother submitted two different proposals. The first proposal was signed but did not propose a flat rate as requested by
the Authority’s request for proposals. Specifically, it proposed a pricing structure that charges for each time an inspector goes out for an
inspection. Therefore, the first proposal would have been considered unresponsive. However, the procurement file contained a second proposal
from the deputy director’s brother that was unsigned, but this second proposal proposed a flat rate as requested by the request for proposals.
Although the request specified that proposals must be mailed to the deputy director, the deputy director said that he never saw his brother’s first
proposal. He was not certain why his brother submitted two different proposals. The deputy director speculated that Authority staff told his
brother to resubmit his proposal.
2
   The deputy director stated that the other firm later refused to honor its proposed flat rate and insisted on reverting to the pricing structure that
charges for each time an inspector goes out for an inspection. However, the representative from that firm told the audit team that his firm did not
refuse to honor the proposed flat rate.



                                                                           7
     for another year until June 30, 2009, without a contract amount and without the executive
     director’s signature.

     Accounting records showed in October and November 2008 that the Authority also paid
     the deputy director’s brother for performing public housing uniform physical condition
     standards inspections. According to the Authority’s personnel, the deputy director
     arranged for his brother to perform these inspections. The Authority stopped using the
     deputy director’s brother to perform the inspections only after the public housing
     department manager informed the executive director that it was too costly. It appeared
     that the Authority did not conduct a cost analysis to determine whether this arrangement
     was most advantageous to the Authority. In February 2009, the deputy director again
     recommended that his brother perform uniform physical condition standards inspections
     for the Authority. According to the executive director, he did not accept the deputy
     director’s recommendation.

     In March 2009, the deputy director admitted that during the same month, the Authority
     started a test project in which his brother began performing half the Authority’s
     upcoming Section 8 housing quality standards annual inspections. This new arrangement
     without benefit of an appropriate procurement process created yet another appearance of
     a conflict of interest. The executive director was unaware of this test project until it was
     brought to his attention in April 2009. Within a week, the executive director rectified the
     problem by ordering Authority staff to terminate the test project.

Section 8 Housing Quality
Standards Annual Inspection
Services

     The Authority had obtained Section 8 housing quality standards annual inspection services
     from Sterling Company, Inc. (Sterling), without a contract since 2005. HUD requires the
     Authority to maintain records sufficient to detail the significant history of a procurement
     action. Although proposals were available for review, other procurement-related documents
     were missing. Specifically, the Authority could not provide the independent cost estimate,
     request for proposals, evaluation of the proposals, the contract, and contract renewals for
     review as required. Without these documents, the Authority could not justify that the
     contract awarded to Sterling was most advantageous to the Authority. Therefore, it could
     not support that $302,168 paid to Sterling between September 2005 and February 2009 was
     fair and reasonable.

Landscaping Maintenance
Services

     The Authority awarded a landscaping maintenance services contract to KJR Enterprises in
     June 2006 without conducting the required procurement process. HUD requires the use of
     sealed bids or competitive proposals methods if the services needed are estimated to go over
     the simplified acquisition threshold, which is currently set at $100,000. Without performing



                                              8
     an independent cost estimate of the services needed to determine which procurement
     method it should have used, the Authority awarded the contract to KJR Enterprises.
     According to Authority staff, the contract award was based on the Authority’s previous
     experience with the contractor, in which the contractor performed a one-time clean-up.
     Although the original contract executed in June 2006 had a contract amount below
     $100,000, it became apparent in 2007 that landscaping maintenance services would cost the
     Authority more than $100,000 annually.

     Although the June 2006 contract did not have an options clause, the Authority renewed or
     extended the contract at least three times in April and November 2007 and again in May
     2008. In the extended April 2007 contract, the Authority inappropriately expanded the
     scope of services and increased the monthly contract payment amount. The April 2007
     contract specified that total payments shall not exceed $100,000 and had a seven-month
     contract term. However, total payments would have exceeded $100,000 in eight months,
     based on the contract’s monthly payment amount. Clearly, the Authority limited the
     contract term to seven months to keep it under the simplified acquisition threshold.

     In November 2007, the Authority renewed the contract again, but this time it split the
     contract into three contracts (two for the family developments and one for the senior and
     disabled developments) with smaller not-to-exceed contract amounts over a six-month
     period. However, the combined contract amounts would have had a not-to-exceed amount
     of more than $100,000. It appeared that the contract was divided to avoid obtaining the
     board’s approval. Further, Authority staff believed that if the matter had been presented to
     the board for approval, the board would have dictated which firm the Authority would be
     required to select. Authority staff cited this as the reason for keeping contract amounts
     under $100,000.

     In May 2008, the Authority amended the November 2007 contract to extend the contract
     term for another six months. When this amended contract expired on November 1, 2008,
     the Authority continued to obtain landscaping maintenance services from KJR Enterprises
     without a written contract.

     The Authority was unable to justify that the contract award and contract renewals with KJR
     Enterprises were most advantageous to the Authority. Therefore, it could not support that
     $303,698 paid to KJR Enterprises for landscaping maintenance services between July 2006
     and January 2009 was fair and reasonable.

Maintenance/Vacant Unit
Turnover Services

     The Authority used the competitive proposals method to procure maintenance/vacant unit
     turnover services but could not show that it performed all the steps required under this
     method. The contracts were awarded to Building Services Maintenance, Inc., and KJR
     Enterprises in July 2007. HUD requires that an independent cost estimate be performed for
     all procurement actions. For purchases in excess of $100,000, the Authority is required to



                                               9
     solicit bids or proposals through advertisement or E-Procurement. HUD also requires other
     steps including performing searches on the General Services Administration Excluded
     Parties List System before contract awards to ensure that the contractors are not debarred or
     suspended, having mandatory clauses in contracts greater than $100,000, and exercising an
     option to extend a contract only if the original contract had an options clause and that a price
     for the additional services was specified.

     However, the Authority could not show that it performed an independent cost estimate or
     that it publicized the solicitation. It also did not perform searches of the two contractors on
     the excluded parties list before awarding the contracts. Neither of the contracts awarded
     included mandatory clauses. Although the original contracts did not contain an options
     clause, the Authority extended the contracts with both contractors and at contract amounts
     higher than the original contracts but kept each renewal contract just below $100,000.
     According to Authority staff, although accounting records showed that total payments on
     each of the two original contracts exceeded $100,000, the renewal contract amounts were
     kept below $100,000 to avoid presenting the contracts to the board for approval. Although
     no direct negative impacts were observed as a result of the Authority’s failure to perform the
     required steps, the Authority must carry out future procurement activities in accordance with
     HUD requirements to ensure that all procurements are conducted with full and open
     competition and that contracts are awarded only to firms that not debarred or suspended.


Construction Contracts

     The Authority awarded two construction contracts to H&H Builders in 2007 using small
     purchase procedures. HUD prohibits breaking down requirements aggregating more than
     the small purchase threshold into multiple purchases to avoid requirements that apply to
     purchases that exceed that threshold. The two construction contracts represented two phases
     of one construction project. The intention was to select one contractor to complete both
     phases of this construction project. Authority staff acknowledged that the two separate
     contracts could have been combined into one contract. Therefore, the Authority should not
     have divided the construction project into separate contracts that were under $100,000, in
     order to solicit bids using small purchase procedures. Authority staff contended that the
     contract was divided because of (1) budget constraints, (2) ease in terminating work, and (3)
     concerns over the board’s hampering the procurement process. However, Authority staff’s
     first two explanations were unfounded because even if one contract had been awarded the
     entire construction project, the contract provisions would still allow the Authority to
     terminate the contract for cause (due to budget constraints) or for convenience. Since the
     Authority used an inappropriate procurement method, it was unable to demonstrate that this
     procurement was conducted with full and open competition or that contracting with H&H
     Builders was most advantageous to the Authority. For the same reason, the Authority could
     not justify that paying H&H Builders $158,180 between September 2007 and May 2008
     was fair and reasonable.




                                               10
Conclusion

     The Authority violated HUD procurement requirements for seven procurement activities.
     This condition occurred because the Authority and its board ignored HUD rules and
     regulations and the Authority’s procurement policy. Also, Authority staff members did not
     always follow procurement requirements because they believed that the board would
     compromise the procurement process. Based on previous experience, Authority staff had
     the perception that the board would challenge the Authority’s recommendation whenever it
     recommended that a contract be awarded to a business outside Richmond. Further, the
     deputy director created the appearance of conflict of interest when he was involved in
     selecting his brother to provide services for the Authority. As a result, the Authority paid at
     least $112,755 to contractors with which a conflict of interest existed. It also spent at least
     $2.4 million without adequate support to show whether the services were obtained or
     whether the prices paid were reasonable and in accordance with the contracts (see appendix
     A).

Recommendations

     We recommend that the Director of HUD’s Office of Public Housing, Region IX,

         1A. Ensure that members of the Authority’s board obtain a full understanding of their
             duties and responsibilities related to the federal procurement process.

         1B. Obtain, on an annual basis, the Authority’s most recent 12-month vendor payment
             history to identify those vendors/contractors that were paid more than $100,000 and
             conduct reviews of the corresponding procurement and contract files for a
             minimum of three years or until HUD is satisfied that the procurements and
             contracts meet federal requirements.

     We also recommend that the Director of HUD’s Office of Public Housing, Region IX,
     require the Authority to

         1C. Conduct a new procurement for security services in compliance with HUD
             procurement requirements and the Authority’s own procurement policy and
             terminate the current contract with DP Security.

         1D. Repay its Public Housing program $46,295, using nonfederal funds, for the
             ineligible payments made through February 28, 2009, plus any subsequent
             payments made to DP Security associated with the January 2009 contract.

         1E. Provide support to show that the DP Security contracts executed in 1998 and 2000
             were most advantageous to the Authority and provide documentation to support
             that the $1,512,531 paid to DP Security was reasonable or repay its public housing




                                               11
    program $1,512,531, using nonfederal funds, for the unsupported payments made
    through December 31, 2008.

1F. Conduct a new procurement for landscaping maintenance services in compliance
    with HUD procurement requirements and the Authority’s own procurement policy
    and terminate the current contract with KJR Enterprises.

1G. Identify the amounts charged to its public housing program and Capital Fund for
    payments made to KJR Enterprises for landscaping services from July 1, 2006,
    through February 28, 2009, and provide documentation to support that the
    expenditures were most advantageous to the Authority and were reasonable or
    repay the corresponding amounts to the appropriate programs from nonfederal
    funds for a total of $303,698 for unsupported payments made through February 28,
    2009, plus any subsequent payments made to KJR Enterprises for landscaping
    services because the Authority did not conduct a procurement.

1H. Discontinue the purchase of Section 8 housing quality standards annual inspection
    services from Sterling once an eligible contractor has been selected.

1I. Conduct a new procurement for Section 8 housing quality standards annual
    inspection services in compliance with HUD procurement requirements and the
    Authority’s own procurement policy.

1J. Provide documentation to support that the purchase of Section 8 housing quality
    standards annual inspection services without a contract with Sterling was most
    advantageous to the Authority and provide documentation to support that the
    $302,168 paid to Sterling was reasonable or repay its Section 8 program $302,168
    from nonfederal funds for unsupported payments made through February 28, 2009,
    plus any subsequent payments made to Sterling.

1K. Conduct a new procurement for Section 8 housing quality standards initial
    inspection services in compliance with HUD procurement requirements and the
    Authority’s own procurement policy and terminate the current contract.

1L. Repay its Section 8 program $50,140, using nonfederal funds, for the ineligible
    payments made to the deputy director’s brother for Section 8 housing quality
    standards initial inspection services through May 27, 2009, plus any subsequent
    payments made to the deputy director’s brother.

1M. Repay its public housing program $11,040, using nonfederal funds, for the
    ineligible payments made to the deputy director’s brother for public housing
    uniform physical condition standards inspection services.

1N. Repay its Section 8 program $5,280, using nonfederal funds, for the ineligible
    payments for Section 8 housing quality standards annual inspection services
    through May 27, 2009, plus any subsequent payments.



                                     12
   1O. Provide documentation to support that the purchase of construction services from
       H&H Builders was most advantageous to the Authority and provide documentation
       to support that the $158,180 paid to H&H Builders was reasonable or repay its
       Capital Fund program $158,180 from nonfederal funds for the unsupported
       payments.

   1P. Obtain HUD’s review and approval of all contracts and amendments totaling more
       than $100,000, in part or aggregate before execution, for a minimum of three years
       or until HUD is satisfied that the procurements and contracts meet federal
       requirements.

   1Q. Provide appropriate training to responsible personnel to ensure that they understand
       federal procurement requirements.

We also recommend that the Acting Director of HUD’s Departmental Enforcement Center

   1R. Take appropriate administrative actions, up to and including debarment, against DP
       Security, its owner, and the Authority’s deputy director for their part in the
       violations cited in this audit report.




                                        13
Finding 2: The Authority Had Internal Control Weaknesses
The Authority’s internal controls were weak. The Authority (1) allowed the City’s finance director
to have access to the Authority’s funds; (2) had discrepancies in its written accounts payable and
disbursement procedures; (3) could not ensure that payments were adequately supported, properly
approved, and within contract amounts; and (4) did not safeguard blank checks and check-printing
equipment from unauthorized use. These deficiencies were caused by inadequate or inconsistent
procedures and practices. As a result, the Authority risked exposing itself to potential significant
financial and legal liabilities.


 The City Had Access to the
 Authority’s Funds

       Since the Authority is a separate entity from the City, the City should not have access to the
       Authority’s assets, such as granting signature authority on its bank accounts. However, in
       June 2006, the board passed a resolution giving the finance director of the City access to the
       Authority’s local agency investment fund account. Although there was no known
       questionable withdrawal by the City, the board put the Authority’s funds on deposit in the
       account at risk.

 Accounts Payable and
 Disbursement Procedures Had
 Discrepancies and Written
 Procedures Conflicted with
 Actual Practice

       The Authority’s written procedures for accounts payable and disbursements showed
       inconsistencies. One part of the procedures specified that payment requests were subject to
       approval and review by the department manager, finance manager, and executive director.
       However, another part of the procedures required either the approval of a department
       manager or the finance manager if the payment requests were accompanied by an authorized
       contract or purchase order. For payment requests that were not accompanied by an
       authorized contract or purchase order, this part of the procedures required approvals from
       both a department manager and the executive director. With these discrepancies, the
       Authority’s written procedures for accounts payable and disbursement were difficult for
       Authority staff to follow.

       Written procedures conflicted with actual practice. The executive director and deputy
       director believed that the procedures required payment requests to have four levels of
       approval, which included department staff, finance manager, deputy director, and executive
       director. Written procedures, as described above, did not require the deputy director’s
       approval. In actual practice, the Authority issued payments with two, three, or four levels of



                                                 14
     approval. The Authority could not explain why payments were issued with fewer than four
     levels of approval.

     Written procedures for check authorization also conflicted with actual practice. Specifically,
     the Authority’s written procedures stated that two signatures, the executive director and the
     finance manager, were required on checks. However, the actual practice was to have the
     deputy director’s and finance director’s signatures stamped on the checks.


Payments Were Not Adequately
Supported or Properly
Approved and Exceeded
Contract Amounts

     The Authority made payments without adequate supporting documentation. Authority staff
     members acknowledged that they approved invoices for payment when they did not have
     documentation to justify the invoiced amounts. For example, Building Services
     Maintenance, Inc. and KJR Enterprises submitted invoices for vacant unit turnover services
     but provided no supporting documentation such as timesheets, receipts for supplies, etc.
     However, Authority staff approved them for payment without determining whether the
     invoiced amounts were appropriate.

     Internal controls should be in place to ensure that all required approvals are obtained before
     issuing checks. However, the Authority’s internal controls in this area proved to be
     ineffective. There were instances in which checks were issued to vendors and posted to the
     Authority’s bank account before the department manager and the executive director levels
     of approval were obtained. There were also instances in which invoices were approved by
     another department manager who was not responsible for procuring or receiving the services
     billed. Unsupported payments occurred because Authority staff was not aware of the
     Authority’s procedures that require invoices to be matched with additional supporting
     documentation to ensure that services were received and billings were accurate before
     approval.

     Internal controls for contract monitoring would ensure that payments made were within the
     contract amount. While the Authority had designated an accounting staff member to
     monitor the contract payments, this internal control was ineffective because some contracts
     had aggregate payments that exceeded the contract amount. Contract amounts were
     exceeded because Authority staff ignored the Authority’s procedures and continued to
     approve invoices for payment although the designated accounting staff member had
     reported that those contracts had no remaining balance.




                                              15
Blank Checks and Check-
Printing Equipment Were Not
Safeguarded from
Unauthorized Use


   Although the finance manager stated that the blank checks and check-printing equipment
   were kept secure in a vault, we observed that the vault was open, and anyone could have had
   access to its contents. The Authority should strengthen its internal controls to ensure that
   access to these items is limited to authorized personnel.

Conclusion

   Office of Management and Budget (OMB) Circular A-133, Audits of States, Local
   Governments, and Non-Profit Organizations, requires that an entity receiving and expending
   federal funds maintain internal controls that provide reasonable assurance that the entity is
   managing its federal awards in compliance with laws, regulations, and grant agreements.
   Through physical observations and payment reviews, we identified the Authority’s internal
   control weaknesses. In some cases, the internal control weaknesses occurred because the
   Authority’s written procedures contained discrepancies. Other weaknesses occurred
   because Authority staff members either were not aware of the responsibilities of their
   positions or ignored the Authority’s written procedures.


Recommendations


   We recommend that the Director of HUD’s Office of Public Housing, Region IX, require
   the Authority to

      2A. Remove the City’s finance director from having direct authorization over or
          access to any of the Authority’s financial accounts or funds, including the local
          agency investment fund account.

      2B. Revise either its written policy or current practice to ensure consistency in the
          levels of approval needed to approve, process, and issue payments pertaining to
          contracts, purchase orders, and other payment requests.

      2C. Revise either (1) its written procedures to reflect the actual practice of having the
          deputy director as one of the two authorized signatories on checks or (2) its
          actual practice to be in accordance with the written procedures in which the
          executive director’s signature is one of the two signatures on checks.




                                            16
2D. Ensure that all department managers and personnel have a clear understanding of
    their roles and responsibilities regarding their respective departments and
    positions.

2E. Perform adequate contract monitoring to ensure that (1) payments for invoices
    are accompanied by supporting documentation to ensure that goods or services
    are received and billings are accurate, (2) payment requests are properly
    approved before checks are printed and issued to vendors, and (3) aggregate
    payments do not exceed contract amounts.

2F. Provide documentation to support that the $97,044 paid to Building Services
    Maintenance, Inc., and the $44,295 paid to KJR Enterprises for maintenance/vacant
    unit turnover services were reasonable or repay its public housing program from
    nonfederal funds for any remaining unsupported payments.

2G. Establish stronger internal controls to safeguard the blank checks and check-
    printing equipment to ensure that access to these items is limited to authorized
    personnel.




                                    17
                        SCOPE AND METHODOLOGY

We performed our on-site audit work at the Authority, located in Richmond, California, from
February to July 2009. Our audit generally covered the procurement activities that affected the
period July 1, 2006, through June 30, 2008. We expanded our scope when necessary. Our
objective was to determine whether the Authority followed procurement requirements.

To accomplish our objective, we

   Reviewed applicable laws, regulations, HUD program requirements at 24 CFR (Code of
   Federal Regulations) Part 85, and HUD’s Procurement Handbook for Public Housing
   Agencies.

   Interviewed the Authority’s employees and HUD staff.

   Reviewed the Authority’s procurement policy and accounts payable and disbursement
   procedures.

   Reviewed the Authority’s board minutes and videos of the board meetings.

   Reviewed the Authority’s audited financial statements for fiscal years ending June 30, 2006
   and 2007.

   Reviewed the procurement files for those vendors that were paid more than $100,000 during
   either of the fiscal years ending June 30, 2007 or 2008.

   Reviewed a systematic sample of payments of the vendors selected.

We conducted the audit in accordance with generally accepted government auditing standards.
Those standards require that we plan and perform the audit to obtain sufficient, appropriate
evidence to provide a reasonable basis for our findings and conclusions based on our audit
objective. We believe that the evidence obtained provides a reasonable basis for our findings
and conclusions based on our audit objective.




                                               18
                              INTERNAL CONTROLS

Internal control is an integral component of an organization’s management that provides
reasonable assurance that the following controls are achieved:

       Program operations,
       Relevance and reliability of information,
       Compliance with applicable laws and regulations, and
       Safeguarding of assets and resources.

Internal controls relate to management’s plans, methods, and procedures used to meet its
mission, goals, and objectives. They include the processes and procedures for planning,
organizing, directing, and controlling program operations as well as the systems for measuring,
reporting, and monitoring program performance.



 Relevant Internal Controls


       We determined that the following internal controls were relevant to our audit objective:

              Policies and procedures that were implemented to reasonably ensure that
              procurement activities were conducted in accordance with applicable
              requirements.

              Policies and procedures that were implemented to reasonably ensure that
              payments to vendors were made in accordance with applicable requirements

              Policies and procedures that were implemented to reasonably ensure that program
              funds were safeguarded from unauthorized use.

       We assessed the relevant controls identified above.

       A significant weakness exists if management controls do not provide reasonable assurance
       that the process for planning, organizing, directing, and controlling program operations will
       meet the organization’s objectives.




                                                19
Significant Weaknesses

     Based on our review, we believe that the following items are significant weaknesses:

            The Authority lacked adequate controls to ensure that procurement activities were
            conducted with full and open competition, free of any appearance of conflict of
            interest, and contracts were only awarded to vendors whose proposals were most
            advantageous to the Authority (finding 1).

            The Authority lacked adequate controls to ensure that payments made were
            supported, properly approved, and within contract amounts (finding 2).

            The Authority lacked adequate controls to ensure that program funds were
            safeguarded from unauthorized use (findings 1 and 2).




                                             20
                                   APPENDICES

Appendix A

                 SCHEDULE OF QUESTIONED COSTS

                  Recommendation            Ineligible 1/   Unsupported 2/
                      number
                        1D                        $46,295
                        1E                                      $1,512,531
                        1G                                         303,698
                         1J                                        302,168
                        1L                         50,140
                        1M                         11,040
                        1N                          5,280
                        1O                                         158,180
                        2F                                          97,044
                        2F                                          44,295
                       Totals                  $112,755         $2,417,916

1/   Ineligible costs are costs charged to a HUD-financed or HUD-insured program or activity
     that the auditor believes are not allowable by law; contract; or federal, state, or local
     policies or regulations.

2/   Unsupported costs are those costs charged to a HUD-financed or HUD-insured program
     or activity when we cannot determine eligibility at the time of the audit. Unsupported
     costs require a decision by HUD program officials. This decision, in addition to
     obtaining supporting documentation, might involve a legal interpretation or clarification
     of departmental policies and procedures.




                                             21
Appendix B

        AUDITEE COMMENTS AND OIG’S EVALUATION


Ref to OIG Evaluation   Auditee Comments




                         22
Comment 1




Comment 2




Comment 3




            23
Comment 4




            24
Comment 5




Comment 6




            25
Comment 7




            26
27
                         OIG Evaluation of Auditee Comments

Comment 1   Based on the results of its procurement process, Authority staff recommended the
            contract be awarded to another security firm, whose proposal was rated the
            highest after considering multiple factors including price, technical aspects,
            history/experience/management/operation, and interview. However, the board, in
            which a majority of the members received political contributions from DP
            Security, rejected Authority staff’s recommendation and awarded the contract to
            DP Security. The contract award was a potential conflict of interest in violation
            of HUD procurement requirements.

Comment 2   The Authority did not dispute the facts in this finding related to the DP Security
            contracts executed in 1998 and 2000. The Authority can work with HUD during
            the audit resolution process to work out a repayment plan.

Comment 3   We commend the Authority for taking steps to implement the recommendations.
            HUD can verify that the recommendations have been implemented.

Comment 4   The procurement for Section 8 housing quality standards annual inspection
            services was performed using the competitive proposals method by issuing a
            request for proposals. The Authority did not use the sealed bid method, with an
            invitation for bids. While the sealed bids method allows the Authority to award a
            contract to a responsible bidder with the lowest bid, the competitive proposals
            method requires the Authority to consider other factors in addition to price. The
            request for proposals would have shown the criteria for evaluating each proposal.
            Therefore, without a copy of the request for proposals, it cannot be determined
            whether the Authority awarded the contract to the firm whose proposal was most
            advantageous to the Authority. Furthermore, by the end of our audit, the
            Authority still could not find the contract. Therefore, it cannot be determined
            whether payments made were in accordance with contract terms.

Comment 5   Since no direct negative impacts were observed as a result of the Authority’s
            failure to perform the required steps during the procurement process, the report
            did not recommend that HUD require the Authority repay all amounts paid to
            Building Services Maintenance, Inc. and KJR Enterprises for maintenance/vacant
            unit turnover services. Rather, the recommendation for repayment was limited to
            the sampled payments that the Authority could not adequately support as
            described in finding 2. Accordingly, this recommendation has been removed
            from finding 1 and placed under finding 2.

Comment 6   We disagree with the Authority’s claim that its choice of procurement method
            was appropriate. While the Authority contended that the contract was bid in two
            phases because the scope for each phase was distinctly different, the phone
            solicitation document prepared by Authority staff did not support that
            explanation. Had the scope of work in each phase been distinctly different, the
            Authority staff would have needed to prepare separate solicitations showing one



                                            28
            group of contractors submitted bids on phase one and another group of contractors
            submitted bids on phase two. However, Authority staff requested bids on both
            phases from the same group of contractors and documented the bids on the same
            phone solicitation record. This suggested that the work in the two phases were
            not so different that it required two separate procurement processes.

            The Authority also contended that cost estimates for each phase were below the
            small purchase threshold, but an independent cost estimate was not in the
            procurement file to justify the use of small purchase procedures.

Comment 7   The Authority’s comment was in response to recommendation 2F in the
            discussion draft report. In this final audit report, that recommendation has been
            renumbered as 2G.

            We commend the Authority for taking steps to implement the recommendations.
            HUD can verify that the recommendations have been implemented.




                                             29
Appendix C
                                          CRITERIA
HUD’s regulations at 24 CFR 85.36(b)(3) state: “No employee, officer or agent of the grantee or
subgrantee shall participate in selection, or in the award or administration of a contract supported
by Federal funds if a conflict of interest, real or apparent, would be involved. Such a conflict
would arise when:

   (i)     The employee, officer or agent,
   (ii)    Any member of his immediate family,
   (iii)   His or her partner, or
   (iv)    An organization which employs, or is about to employ, any of the above, has a financial
           or other interest in the firm selected for award. The grantee’s or subgrantee’s officers,
           employees or agents will neither solicit nor accept gratuities, favors or anything of
           monetary value from contractors, potential contractors, or parties to subagreements.”

HUD’s regulations at 24 CFR 85.36(b)(9) state: “Grantees and subgrantees will maintain
records sufficient to detail the significant history of a procurement. These records will include,
but are not necessarily limited to the following: rationale for the method of procurement,
selection of contract type, contractor selection or rejection, and the basis for the contract price.”

HUD’s regulations at 24 CFR 85.36(d)(1) state: “Small purchase procedures are those relatively
simple and informal procurement methods for securing services, supplies, or other property that
do not cost more than the simplified acquisition threshold fixed at 41 U.S.C. [United States
Code] 403(11) (currently set at $100,000).”

HUD’s regulations at 24 CFR 85.36(i) require all contracts to contain the following provisions:

   (1)     Administrative, contractual, or legal remedies in instances where contractors violate or
           breach contract terms, and provide for such sanctions and penalties as may be
           appropriate. (Contracts more than the simplified acquisition threshold)
   (2)     Termination for cause and for convenience by the grantee or subgrantee including the
           manner by which it will be effected and the basis for settlement. (All contracts in
           excess of $10,000)
   (3)     Compliance with Executive Order 11246 of September 24, 1965, entitled “Equal
           Employment Opportunity,” as amended by Executive Order 11375 of October 13,
           1967, and as supplemented in Department of Labor regulations (41 CFR chapter 60).
           (All construction contracts awarded in excess of $10,000 by grantees and their
           contractors or subgrantees)
   (4)     Compliance with the Copeland “Anti-Kickback” Act (18 U.S.C. 874) as supplemented
           in Department of Labor regulations (29 CFR part 3). (All contracts and subgrants for
           construction or repair)
   (5)     Compliance with the Davis-Bacon Act (40 U.S.C. 276a to 276a-7) as supplemented by
           Department of Labor regulations (29 CFR part 5). (Construction contracts in excess of
           $2000 awarded by grantees and subgrantees when required by Federal grant program
           legislation)


                                                  30
   (6)    Compliance with Sections 103 and 107 of the Contract Work Hours and Safety
          Standards Act (40 U.S.C. 327-330) as supplemented by Department of Labor
          regulations (29 CFR part 5). (Construction contracts awarded by grantees and
          subgrantees in excess of $2000, and in excess of $2500 for other contracts which
          involve the employment of mechanics or laborers)
   (7)    Notice of awarding agency requirements and regulations pertaining to reporting.
   (8)    Notice of awarding agency requirements and regulations pertaining to patent rights with
          respect to any discovery or invention which arises or is developed in the course of or
          under such contract.
   (9)    Awarding agency requirements and regulations pertaining to copyrights and rights in
          data.
   (10)   Access by the grantee, the subgrantee, the Federal grantor agency, the Comptroller
          General of the United States, or any of their duly authorized representatives to any
          books, documents, papers, and records of the contractor which are directly pertinent to
          that specific contract for the purpose of making audit, examination, excerpts, and
          transcriptions.
   (11)   Retention of all required records for three years after grantees or subgrantees make final
          payments and all other pending matters are closed.
   (12)   Compliance with all applicable standards, orders, or requirements issued under section
          306 of the Clean Air Act (42 U.S.C. 1857(h)), section 508 of the Clean Water Act (33
          U.S.C. 1368), Executive Order 11738, and Environmental Protection Agency
          regulations (40 CFR part 15). (Contracts, subcontracts, and subgrants of amounts in
          excess of $100,000).
   (13)   Mandatory standards and policies relating to energy efficiency which are contained in
          the state energy conservation plan issued in compliance with the Energy Policy and
          Conservation Act (Pub. L. 94-163, 89 Stat. 871).

HUD’s Procurement Handbook for Public Housing Agencies

Chapter 3.2 states that the independent cost estimate is the public housing agency’s estimate of
the costs of the goods or services to be acquired under a contract or a modification. It also helps
the contracting officer determine the contracting method to be used. The independent cost
estimate must be prepared before the solicitation of offers.

Chapter 3.3 states that the public housing agency (PHA) must maintain records sufficient to
detail the significant history of each procurement action. Supporting documentation shall be in
writing and placed in the procurement file. These records shall include but shall not necessarily
be limited to the following:

   1. Rationale for the method of procurement selected. For example, the contract file would
      not need to state why the contracting officer chose small purchase procedures to order a
      desk but would want to note why noncompetitive proposals were used for a roofing
      contract.
   2. The solicitation.




                                                31
   3. Selection of contract pricing arrangement, but only if not apparent. For example, the
      contract file would not need to document why a firm fixed-price contract was used to
      obtain building materials.
   4. Information regarding contractor selection or rejection, including, where applicable, the
      negotiation memorandum, the source selection panel, evaluation report, cost and price
      analysis, e-mail correspondence (including offers, selections, pertinent pre- and post-
      award discussions and negotiations, etc.)
   5. Basis for the contract price (as prescribed in this handbook), and
   6. Contract administration issues/actions.

Chapter 3.3 continues to state that PHAs shall retain all significant and material documentation
and records concerning all procurements they conduct. These records must be retained for a
period of three years after final payment and all matters pertaining to the contract are closed. If
any claims or litigation are involved, the records shall be retained until all issues are
satisfactorily resolved.

Chapter 4.4 specifies that no PHA employee, officer, or agent shall participate in the selection,
award, or administration of a contract supported by federal funds if a conflict of interest,
financial or otherwise, real or apparent, would be involved. Such a conflict would arise when the
employee, officer, or agent; any member of his or her immediate family; his or her partner; or an
organization which employs or is about to employ any of the above has a financial or other
interest in the firm selected for the award.

Chapter 4.4 states that solicitations and contracts above the federal small purchase threshold shall
include clauses advising prospective contractors of the prohibitions against gratuities and
kickbacks (24 CFR 85.36(i)(4)). These rules are designed to protect the integrity of the
procurement system and to ensure that contracts are awarded fairly, based on merit, without
improper influence. It further states that PHA officers, current employees, former employees
within one year of employment, or agents shall neither solicit, accept, or agree to accept
gratuities, favors, or anything of monetary value from contractors, potential contractors, or
parties to subagreements. It continues to state that disclosure of confidential information to any
person not authorized by the contracting officer to receive such information shall be a breach of
the ethical standards. Confidential information includes but is not necessarily limited to the
contents of a bid (before bid opening) or proposal (before contract award using competitive
proposals), names of individuals or firms that submitted bids (before bid opening) or proposals
(before contract award), PHA-generated information related to a procurement (including PHA
cost estimates, contractor selection and evaluation plans, specifications [before solicitation is
issued]), and any other information the disclosure of which would have a direct bearing upon the
contract award or the competitive process. It is a breach of ethical conduct for any current or
former employee, officer, or agent to knowingly use confidential information for actual or
anticipated personal gain or for actual or anticipated personal gain of any other person.

Chapter 5.3 prohibits the contracting officer from breaking down requirements aggregating more
than the small purchase threshold (or the micro purchase threshold) into multiple purchases that
are less than the applicable threshold (commonly called “bid splitting” or “unbundling”) merely




                                                 32
to permit use of the small purchase procedures or avoid requirements that apply to purchases that
exceed those thresholds.

Chapter 10.2 states that before a contract is awarded, the PHA shall check to determine if HUD
has issued an LDP (limited denial of participation) or if a contractor has been debarred or
suspended. A list of persons and contractors for which LDPs have been issued may be found on
the Internet at www.hud.gov/enforce. All persons or contractors that have been suspended or
debarred from Federal programs will show up on the GSA website: http://epls.arnet.gov. It is
recommended that PHAs also check with their State agencies regarding debarred or suspended
contractors.

Chapter 10.8 states that the option to extend the term of the contract or to order additional
supplies or services is the unilateral right of the PHA. The additional supplies or services are
ordered at the prices specified in the original contract. A clause that allows an option to be
exercised by the contractor is not a legitimate option clause. It further states that the option to
extend the term of the contract or to order additional quantities may only be exercised if the
contract contained an options clause and if a price for the additional supplies or services was
included. An unpriced option is considered a new procurement and, therefore, may not be used.
In the case of a cost-reimbursement contract, an estimated cost for the option periods or
additional quantities must be negotiated and included in the contract award; otherwise, the option
will need to be treated either as a change order or a new contract. It continues to state that
contracts shall not exceed a period of five years, including options for renewal or extension.

Authority’s Procurement Policy

Section III.F states that the request for proposals shall clearly identify the relative importance of
price and other evaluation factors and subfactors, including the weight given to each technical
factor and subfactor. A mechanism for fairly and thoroughly evaluating the technical and price
proposals shall be established before the solicitation is issued. Proposals shall be handled so as
to prevent disclosure of the number of offerors, identity of the offerors, and the contents of their
proposals. The proposals shall be evaluated only on the criteria stated in the request for
proposals. It further states that the contract shall be awarded to the responsible firm whose
qualifications, price and other factors considered, are the most advantageous to the Authority.

Section V.B specifies that options for additional quantities or performance periods may be
included in contracts, provided that “(i) the option is contained in the solicitation; (ii) the option
is a unilateral right of the Authority; (iii) the contract states a limit on the additional quantities
and the overall term of the contract; (iv) the options are evaluated as part of the initial
completion; (v) the contract states the period within which the options may be exercised; (vi) the
options may be exercised only at the price specified in or reasonably determinable from the
contract; and (vii) the options may be exercised only if determined to be more advantageous to
the Authority than conducting a new procurement.”

Section IX.B states that no member, officer, or employee of the Authority shall voluntarily
acquire an interest, direct or indirect, in any contract or proposed contract relating to the
Authority. If any such member, officer, or employee involuntarily acquires any such interest or



                                                  33
had acquired any such interest before appointment or employment as such member, officer, or
employee, then such member, officer, or employee shall immediately disclose any such interest
in writing to the Authority, and such disclosure shall be entered into the minutes of the
Authority, a copy of which is promptly furnished to the Authority. Upon such disclosure, such
member, officer, or employee shall not participate in any action by the Authority relating to the
contract in which he or she may have any such interest. It further states that Authority officers,
employees or agents shall not solicit or accept gratuities, favors, or anything of monetary value
from contractors, potential contractors, or parties to subcontracts and shall not knowingly use
confidential information for actual or anticipated personal gain.

OMB Circular A-133 requires that the auditee maintain internal controls over federal programs
that provide reasonable assurance that the auditee is managing federal awards in compliance with
laws, regulations, and the provisions of contracts or grant agreements that could have a material
effect on each of its federal programs.




                                                34
